App. 1
IN THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
No. 18-2682
Submitted January 14, 2019*
Decided January 15, 2019
IRMA ROSAS,
Appellant,
vs.
ROMAN CATHOLIC ARCHDIOCESE OF
CHICAGO,
Appellee.

Appeal from the United States Court of
Appeals for the Seventh Circuit before Frank H.
Easterbrook, Michael S. Kanne, and David F.
Hamilton, Circuit Judges.

* We have agreed to decide this case without
oral argument because the briefs and record
adequately present the facts and legal arguments,
and oral arguments would not significantly aid the
court. FED. R. CIV. P. 34(a)(2)(C).

App. 2
ORDER
Irma Rosas alleges that, in denying her
access to a private cemetery to build an alter, the
Roman Catholic Archdiocese of Chicago violated
Title VI of the Civil Rights Act, 42 U.S.C. §§ 2000d
to 200d-7. That law bars discrimination by entities
receiving federal funds. The district court denied
Rosas's request to proceed in forma pauperis and
later, after she paid the filing fee, granted the
Archdiocese's motion to dismiss, which argued that
Rosas did not allege that the Archdiocese receives
federal funds. We affirm because Rosas's complaint
does not state a violation of Title VI, so her
contention that the denial of pauper status kept
her from litigating a valid claim is meritless.
When Rosas sought to sue in forma pauperis,
she filed a complaint swollen with disconnected
allegations. In her complaint, which was over 250
pages long, Rosas accused more than 40 unrelated
defendants of violating federal laws regarding
firearms, housing, labor, education, food, and
voting. The district court denied the application for
pauper status, see 28 U.S.C. § 1915(a), determining

App. 3
that Rosas was not indigent. The court also
reviewed the complaint's contents and ruled that
the "unwieldy" pleading violated Federal Rule of
Civil Procedure 20, which limits complaints to
related claims and defendants. The court dismissed
it without prejudice, giving Rosas a chance to
amend it after paying $400 filing fee.
Rosas paid the entire fee, but her
amendments did not survive scrutiny. Her first
amended complaint asserted claims only on behalf
of her mother. The judge dismissed this too, also
without prejudice, and gave Rosas one last chance
to amend. Rosas then filed her second amended
complaint, which is the subject of this appeal. It
alleges that Rosas visited a cemetery owned by the
Archdiocese to build an altar at her father's grave.
A groundskeeper told her to stop; she replied that
she wanted to celebrate El Dia de los Muertos (the
Day of the Dead). The Archdiocese informed her
that the holiday was not celebrated at the
cemetery. Rosas contends that these actions
violated Title VI because, in her view, the
Archdiocese discriminated against her based on her

App. 4
race and national origin. The Archdiocese moved to
dismiss the complaint for failure to allege that it
receives federal funds. See FED. R. CIV. P. 12(b)(6).
It notified Rosas by mail that its counsel "shall
appear" before the district judge seven days later to
present the motion to dismiss. Rosas did not appear
at the hearing, and the district court granted the
defendant's motion apparently because Rosas had
not alleged that the Archdiocese received federal
funding. After Rosas appealed to this court, the
district court granted her request to proceed in
forma pauperis on appeal.
On appeal Rosas first challenges the district
court's decision denying her leave to file her suit
with pauper status. But for two reasons, that
ruling does not warrant relief on appeal. First,
Rosas already paid the entire filing fee in the
district court, as was her eventual obligation.
Under 28 U.S.C. § 1915(a), a district court may
allow a litigant to proceed "without prepayment of
fees," (emphasis added) but not without ever paying
fees. See Robbins v. Switzer, 104 F.3d 895, 897-88
(7th Cir. 1997). Second, Rosas does not contend that

App. 5
the court's ruling that she prepay her fee harmed
her ability to litigate. To the contrary, Rosas's
ability to litigate this case was not harmed because,
as we explain below, the district court permissibly
dismissed her complaint as legally insufficient.
Rosas maintains that the district court
should not have dismissed her complaint. She gives
two arguments. First, she contends that the district
judge did not adhere to Federal Rule of Civil
Procedure 6(c), which provides that a party moving
to dismiss must notify the parties of the hearing at
least 14 days before the hearing. True, the
Archdiocese notified Rosas about its motion to
dismiss just seven days before its hearing. But a
district court may adopt local rules that alter the
default deadlines of Rule 6, see FED. R. CIV. P. 83;
Hollingsworth v. Perry, 558 U.S. 183, 191 (2010);
Stewart Title Guar. Co. C. Cadle Co., 74 F.3d 835,
837 n.1 (7th Cir. 1996). The district court's local
rules states that a motion served by mail must be
presented to the court at least 7 days after mailing
the notice to the parties. N.D. ILL. LOC. RS. 5.3(b),
78.1, 78.3. Because the Archdiocese followed the

App. 6
district court's permissible local rules, no error
occurred.
Second, Rosas argues that the district court
violated Federal Rules of Civil Procedure
15(a)(1)(B) because, after the Archdiocese moved to
dismiss, the court did not grant her 21 days to file
"as a matter of course" yet another amended
complaint. But if, as Rosas contends, she was
entitled to file an amended complaint "as a matter
of course" within 21 days of the Archdiocese's
motion, permission from the judge was
unnecessary. See Swanigan v. City of Chicago, 775
F.3d 953, 963 (7th Cir. 2015) (under Rule 15(a)(1),
"whether to allow" a party's timely amendment is
"out of the court's hands entirely" because the
party has a "right" to amend). Yet Rosas did not
even attempt to submit a proposed pleading. Nor
has she explained on appeal how she would cure
the deficiency that the Archdiocese identified (no
federal funding). Rosas also has not argued that,
despite the absence of federal-funding allegation,
her complaint is legally sufficient under Title VI.
Under these circumstances, the judge did not err

App. 7
by dismissing the complaint without inviting Rosas
to amend her complaint a third time. See GonzalezKoeneke v. West, 791 F3d 801, 808-809 (7th Cir.
2015).
AFFIRMED

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS: EASTERN DIVISION
No. 18-02706
Entered August 3, 2018

IRMA ROSAS,
Plaintiff,
vs.
MICHAEL J. MADIGAN, et al.,
Defendant.

NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on
Friday, August 3, 2018:

App. 8
MINUTE entry before the Honorable Charles R.
Norgle: Motion to Dismiss [21] is granted. Motion
hearing held on 8/3/2018. Plaintiff failed to appear.
Case dismissed with prejudice. Civil case
terminated. Mailed notice(ewf, )

IN THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
No. 18-2682
Decided February 8, 2019

IRMA ROSAS,
Appellant,
vs.
ROMAN CATHOLIC ARCHDIOCESE OF
CHICAGO,
Appellee.

Appeal from the United States Court of
Appeals for the Seventh Circuit before Frank H.
Easterbrook, Michael S. Kanne, and David
F. Hamilton, Circuit Judges.

App. 9
ORDER
On consideration of the petition for
rehearing filed in the above-entitled cause by pro se
appellant, Irma Rosas, all of the judges on the
original panel have voted to deny a rehearing. It is,
therefore, ORDERED that the aforesaid petition
for rehearing is DENIED.

Practitioner's Handbook For Appeals To The
United States Court Of Appeals For The
Seventh Circuit, 2017 Edition, pp. 104-1053

F. Responsibilities of Counsel When Appellate
Adversary Appears Pro Se
When one side in an appeal is pro se, the
counseled party should be particularly attentive to
its own obligations. For example, in discussing the
sufficiency of a pro se complaint, counsel should
recognize that even in the wake of Bell Atlantic
Corp. v. Twombly 550 U.S. 544 (2007), and Ashcroft
3

Pursuant to Rule 14(i)(vi) of the Supreme Court of the

United States

App. 10
v. Iqbal, 556 U.S. 662 (2009), pleading standards
for pro se litigants are relaxed. See Arnett v.
Webster,

658 F.3d 742, 751 (7th Cir. 2011)

(reminding courts to "construe pro se complaints
liberally and hold them to a less stringent standard
than formal pleadings drafted by lawyers"); see
also Swanson v. Citibank, NA., 614 F.3d 400, 404
(7th Cir. 2010) (explaining after Iqbal that the
plaintiff need only "give enough details about the
subject-matter of the case to present a story that
holds together").

As the court noted in Osageide v. United States,
543 F.3d 399, 405 (7th Circuit 2008), pro se litigants
"will, at times, confuse legal theories or draw the
wrong legal implications from a set of facts... [b]ut
we do not treat every technical defect as a grounds
for rejection." Rather, the question for the court is
whether the complaint "adequately presents the
legal and factual basis for the claim, even if the
precise legal theory is inartfully articulated or
more difficult to discern." Ambrose v. Roeckeman,
749 F.3d 615, 618 (7th Cir. 2014) (citing Osageide).

App. 11
Counsel also should recognize that the court
distinguishes between complaints that are
unintelligible and those that are merely long.
Kadmovas v. Stevens, 706 F.3d 843 (7th Cir. 2013).

Finally, counsel should understand that, where
appropriate, the court of appeals will construe a
pro se's filing in the district court as what the pro
se intended it to be treated, regardless of its label.
Williams v. Milwaukee Health Services, 732 F.3d
770 (7th Cir. 2013); Smith v. Grams, 565 F.3d 1037
(7th Cir. 2009); Lewis v. Sternes, 390 F.3d 1019,
1027 (7th Cir. 2004).

On appeal, the court of appeals construes pro se
filings liberally and will address any cogent
arguments it is able to discern in a pro se appellate
brief. Parker v. Four Seasons Hotels, Ltd. 845 F.3d
807, 811 (7th Cir. 2017). But this does not mean
that a pro se litigant is free to ignore the court's
rules and orders. Litigants, including those who
proceed without counsel, must follow court rules
and directives. McInnis v. Duncan, 697 F.3d 661,

App. 12
665 (7th Cir. 2012) (per curiam). The brief, for
example, must contain an argument consisting of
more than a generalized assertion of error, and
include citations to relevant supporting authority.
A pro se brief that offers no articulable basis for
disturbing the district court's judgment, merely
repeating allegations in the complaint and citing
irrelevant cases, justifies dismissal. Anderson v.
Hardiman, 241 F.3d 544 (7th Cir. 2001). Nor will
the court relax the rule for pro se litigants which
prohibits the presentation of new evidence on
appeal. Hirmiz v. New Harrison Hotel Corp., No.
16-3915, slip op. at 10 (7th Cir. Apr. 6, 2017).

Also, the court of appeals has not hesitated to
sanction persistent obstinacy or a desire to file
repeated frivolous lawsuits, issuing Mack orders.
See, e.g., In re City of Chicago, 500 F.3d 582, 585588 (7th Cir. 2007) (explaining Mack orders and
how they are supposed to work). The court,
however, generally warns the litigants before such
action is taken.

App. 13
As in any appeal, the counseled party should
maintain its credibility by not misstating the law to
take advantage of the relative inexperience of the
pro se party. For example, the counseled party
should not dismiss a pro se's

self-interested

affidavits as unworthy of credence merely because
they are self-serving. Till v. Tangherlini, 724 F.3d
965 (7th Cir. 2013); Navejar v. Iyiola, 718 F.3d 692
(7th Cir. 2013). Counsel further may consider
alerting the pro se to obligations, such as the need
for a transcript on appeal, see Fed. R. App. P.
10(b)(2), or the need for the non-lawyer litigant to
retain counsel to represent another adult,
corporation, or estate. Rowland v. California Men's
Colony, 506 U.S. 194, 201-202 91993); Nocula v.
Tooling Systems International Corp., 520 F.3d 719,
725 (7th Cir. 2008); Malone v. Nielson, 474 F.3d
934, 937 (7th Cir. 2007); see also Georgakis v.
Illinois State University, 722 F.3d 1075, 1077 (7th
Cir. 2013).

App. 14
ABA JOURNAL4
Judiciary
Why did Posner retire? He cites 'difficulty'
with his colleagues on one issue
By Debra Cassens Weiss
(H T TP ://WWW.ABAJO URNAL. COM/AUTH 0 R S/4/)

September 7, 2017, 9:04 AM CDT

Judge Richard Posner had intended to stay on the
federal appellate bench until he reached 80, an age
he believed to be the upper limits for federal judges.
But on Friday, at the age of 78, he abruptly
announced his retirement6 from the Chicago-based
7th U.S. Circuit Court of Appeals, effective the next
day. The reason is due to "difficulty" with his

4

Pursuant to Rule 14(i)(vi) of the Supreme Court of the

United States
5

[internal citation omitted (http://www.abajournal.com/news

/article/there_is_no_need_for_octogenarians_on_the_supreme
_court_posner_says)]
6

[internal citation omitted (http://www.abajournal.com/news

/article/judge_richard_posner_retires_from_the_7th_circuit_af
ter_36_years)]

App. 15
colleagues over the court's treatment of people who
represent themselves, he told the Chicago Daily
Law Bulletin7 in an email.

"I was not getting along with the other judges
because I was (and am) very concerned about how
the court treats pro se litigants, who I believe
deserve a better shake," Posner said. The issue will
be addressed in an upcoming book that will explain
his views and those of his colleagues "in
considerable detail," Posner said.

Posner said he did not time his retirement to allow
President Donald Trump to appoint his
replacement. "I don't think it's proper for judges or
justices to make their decision to retire depend on
whom they think the president will appoint as
replacements," he told the Law Bulletin. With
Posner's retirement, the 7th Circuit has four
vacancies.
7

[internal citation omitted (http://chicagolawbulletin.com/

Articles/20 1 7/09/06/Posner-bench-friction-9-6- 17)]

App. 16
Posner was appointed by President Ronald Reagan
in 1981, and was widely considered a conservative.
He has since written more than 3,300 judicial
opinions, and not all please conservatives,
according to the Law Bulletin. On the one hand, he
struck down the Illinois ban on carrying weapons
in public, called for fewer restrictions on domestic
surveillance, and limited class certification in classaction lawsuits. But he has also written opinions
favoring abortion rights and same-sex marriage.

In a 2012 interview with National Public Radio,
Posner said he has become less conservative "since
the Republican Party started becoming goofy." But
he won't remain above the fray in politics.

He told the Law Bulletin that his retirement will
allow him to assist his cat, Pixie, in a run for
president in 2020. Above the Law had endorsed
Pixie last year, but Posner was unable to
participate in the campaign.

App. 17
"I am optimistic that by [2020] the public will be
fed up with human presidential candidates,
whether named Trump or Clinton," he told the Law
Bulletin.

Currently a senior lecturer in law at the University
of Chicago Law School, Posner identified other
future pursuits in a statement about his retirement
on Friday.

"I am proud to have promoted a pragmatic
approach to judging during my time on the court,
and to have had the opportunity to apply my view
that judicial opinions should be easy to understand
and that judges should focus on the right and
wrong in every case," he wrote.

"I look forward to continuing to teach and publish,
with a particular focus on social justice reform."
Posner told the Daily Law Bulletin that he believes
his greatest impact was his advocacy for an
economic analysis of the law. In an article for

App. 18
Bloomberg View,8 Harvard law professor Cass
Sunstein agreed, calling Posner, "probably the
world's most influential legal thinker over the last
half-century."

Posner's approach has a deceptively simple starting
point: We should focus insistently on the real-world
consequences of legal rules," Sunstein wrote.

ABA JOURNALS
Judiciary
Most judges regard pro se litigants as 'kind of
trash not worth the time'
By Debra Cassens Weiss
(HTTP://WWW.ABAJOURNAL.COM/AUTHORS/4/)

September 11, 2017, 11:57 AM CDT

8

[internal citation omitted (http://www.bloomberg.com/view

/articles/2017-09-03/richard-posner-leader-of-a-singlerevolution)]
9

Pursuant to Rule 14(i)(vi) of the Supreme Court of the

United States

App. 19
Judge Richard Posner cites boredom with judging
as well as rebuffed efforts to aid pro se litigants in
a new interview explaining his decision to suddenly
retire from the Chicago-based 7th U.S. Circuit
Court of Appeals.

Posner, 78, told the Chicago Daily Law Bulletinlo
last week that he decided to retire because of
conflicts with his colleagues over the treatment of
pro se litigants, who represent themselves. In a
new interview with the New York Times", Posner
elaborated on his concerns about the treatment of
such litigants.

"The basic thing is that most judges regards these
people as kind of trash not worth the times of a
federal judge," Posner said.

10

[internal citation omitted (http://www.abajournal.com/news

/article/why_did-posner_retire_he_cites_difficulty_with_his
_colleagues_on_one_issue)]
11 [internal

citation omitted (https://nyti.ms/2xVeS8m)]

App. 20
In the 7th Circuit, staff lawyers review appeals from
pro se litigants, and their recommendations are
generally rubber-stamped by judges, he noted.

Posner wanted to give the pro se litigants a better
shake by reviewing all of the staff attorney memos
before they went to the panel of judges. Posner had
approval from the director of the staff attorney
program. "But the judges, my colleagues, all 11 of
them, turned it down and refused to give me any
significant role. I was very frustrated by that,"
Posner said.

Posner has written about the pro se issue in an
upcoming book, and its publication "would be
particularly awkward" if he remained on the court
because it "implicitly or explicitly" criticizes the
other judges, he said.

Posner said he began to focus on the problems of
pro se litigants about six months ago when he
"awoke from a slumber of 35 years." He decided to
write the book and "realized, in the course of that,

App. 21
that I had really lost interest in the cases," he told
the Times.

"And then I started asking myself, what kind of
person want to have the same identical job for 35
years? And I decided 35 years is plenty. It's too
much. Why didn't I quite 10 years ago? I've written
3,300 plus judicial opinions."

ABA JOURNAL12
Judiciary
7th Circuit's chief judge disagrees with newly
retired Posner on pro se criticisms
By Debra Cassens Weiss
(HTTP://WWW.ABAJOURNAL.COM/AUTHORS/4/)

September 15, 2017, 4:53 PM CDT

Chief Judge Diane Wood of the Chicago-based 7th
U.S. Circuit Court of Appeals is voicing her
disagreement with newly retired Judge Richard
Posner.
12

Pursuant to Rule 14(i)(vi) of the Supreme Court of the

United States

App. 21
that I had really lost interest in the cases," he told
the Times.

"And then I started asking myself, what kind of
person want to have the same identical job for 35
years? And I decided 35 years is plenty. It's too
much. Why didn't I quite 10 years ago? I've written
3,300 plus judicial opinions."

ABA JOURNAL12
Judiciary
7th Circuit's chief judge disagrees with newly
retired Posner on pro se criticisms
By Debra Cassens Weiss
(HTTP://WWW.ABAJOURNALCOM/AUTHORS/4/)

September 15, 2017, 4:53 PM CDT

Chief Judge Diane Wood of the Chicago-based 7th
U.S. Circuit Court of Appeals is voicing her
disagreement with newly retired Judge Richard
Posner.
12

Pursuant to Rule 14(i)(vi) of the Supreme Court of the

United States

App. 22
Posner told the New York Times13 and other
publications that he decided to step down from the
court because of conflicts with his colleagues over
the treatment of litigants who represent
themselves in appeals.

Posner told the Times that most judges regard pro
se litigants as "kind of trash not worth the time of a
federal judge." Judges in the 7th Circuit generally
rubber stamp recommendations of staff lawyers
who review pro se appeals, he said. And Posner
said he was rebuffed when he wanted to give pro se
litigants a better shake by reviewing the staff
attorney memos before they were circulated to
judges.

13

[Internal citation omitted

(http ://abajournal.com/news/article/posner_most_judges_re gar
d_pro_se_litigants_as_kind_of trash_nor_worth_the_t/?utm_s
ource=internal&utm_medium=navigation&utm_camp aign=m
ost_read)]

App. 23
Above the Lawm reached out to Wood for comment.
She gave this statement to the blog: "First, while
[Judge Posner] is certainly entitled to his own
views about such matters as our Staff Attorney's
Office and the accommodations we make for pro se
litigants, it is worth noting that his views about
that office are not shared by the other judges on the
court, and his assumptions about the attitudes of
the other judges toward pro se litigants are nothing
more than that—assumptions.

"In fact, the judges and our staff attorneys take
great care with pro se filings, and the unanimous
view of the eleven judges on the 7th Circuit
(including actives and seniors) is that our staff
attorneys do excellent work, comparable to the
work done by our chambers law clerks. We are
lucky to attract people of such high caliber for these
two-year positions."

14

[internal citation omitted (http://abovethelaw.com/2017/09/

the-seventh-circuit-responds-to-judge-richard-posner/?rf=1)]

